C@OCKLE

Legal Briefs
Est.1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 19-873

GEOPHYSICAL SERVICE, INCORPORATED,
Petitioner,
v.
TGS-NOPEC GEOPHYSICAL COMPANY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
IN SUPPORT OF PETITIONER in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 3935 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary .
State of Nebraska bos A LM Qudraw- Be
My Commission Expires Nov 24, 2020 < :

Notary Public Affiant 39504

 

 
